                                            h
                                                                                             1
                                        \   i
                                                                                         \    j         j             -
                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL                                           I

                                                           OFFICE OF INVESTIGATIONS                                            i

                                                  CLOSEOUT MEMORANDUM                                                          !I
                                                                                                                               1
                                                                                                                               I
                                                                                                                               I


     Case Number: A-06050018                                                                        Page 1 of 1
                                                                                                                               I
                                                                                                                               !
                                                                                                                               I
                                                                                                                               I

           We received allegations from the complainant1that subject submitted a proposal to NSF~in
           which the complainant's unpublished data had been used without permission. The complainant
           claimed these data were his, generated with the assistance of a post-doctoral researcher in his
           laboratory. The complainant also alleged that subject's students used these data in posters
           without appropriate acknowledgment. The complainant stated that the university4 had initiated
           an inquiry into these allegations. Consequently, we referred our inquiry to the University.

           The University's inquiry report (the report) included two separate inquiries: 1) a review of
           allegations against subject, and 2) a review of allegations against the complainant brought by
           subject. Our analysis showed that NSF lacked jurisdiction over the allegations against
           complainant.5

           The report concluded that there was either no substance or insufficient substance to all the
           allegations. The report states that the subject and the complainant were involved in a
           collaborative research program and therefore both had rights to the data. The report noted that
           the subject did breach scientific etiquette by not including the complainant's name on a poster
           that was presented at a local conference and also by moving research samples from one freezer to


                                                                                                                                    ~
           another without the complainant's permission.

11         We concurred with the report's conclusions that there is insufficient substance to warrant an                  11



                                -
                                                                                                    -
=)I(                                                                                                                      11
 *+'

           ' The complainant,               was a faculty member,
                                                                                                                  *




           2
           3




           4

                                for the work associated with these allegations was funded under a




 NSF OIG Form 2 ( 1 1/02)
                                                                                                                      -
